a
i

(COCKLE

2311 Douglas Street * E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga iB te efs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831

Fax: (402) 342-4850

No. 19-

STEPHEN LINDER,
Petitioner,
Vv.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 5474 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 2nd day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL HOTARY-State of Nebraska ) / x. Chl
RENEE U. GOSS Oo ‘.
My Comm. Exp. September §, 2023 .

Notary Public Affiant

www.cocklelegalbriefs.com

39511
